<html>
<title> - LEGISLATIVE HEARING ON S. 283, NATIONAL CLIMATE BANK ACT</title>
<body><pre>[Senate Hearing 117-21]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 117-21

        LEGISLATIVE HEARING ON S. 283, NATIONAL CLIMATE BANK ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON CLEAN AIR, 
                      CLIMATE, AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             APRIL 27, 2021
                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
44-775 PDF                WASHINGTON : 2021        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
                              ----------                              

         Subcommittee on Clean Air, Climate, and Nuclear Safety

               EDWARD J. MARKEY, Massachusetts, Chairman
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma Ranking 
BERNARD SANDERS, Vermont                 Member
SHELDON WHITEHOUSE, Rhode Island     KEVIN CRAMER, North Dakota
JEFF MERKLEY, Oregon                 CYNTHIA M. LUMMIS. Wyoming
TAMMY DUCKWORTH, Illinois            RICHARD SHELBY. Alabama
DEBBIE STABENOW, Michigan            JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
THOMAS R. CARPER, Delaware (ex       JONI ERNST, Iowa
    officio)                         LINDSEY O. GRAHAM, South Carolina
                                     SHELLEY MOORE CAPITO, West 
                                         Virginia (ex officio)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 27, 2021
                           OPENING STATEMENTS

Markey, Hon. Edward, U.S. Senator from the State of Massachusetts     1
Inhofe, Hon. James, U.S. Senator from the State of Rhode Oklahoma     2
Van Hollen, Hon. Chris, U.S. Senator from the State of Maryland..     4

                               WITNESSES

Hundt, Hon. Reed, Chairman and CEO, Coalition for Green Capital..     7
    Prepared statement...........................................    10
    Response to additional questions from Senator Carper.........    24
Andrade, M. Duanne, Chief Strategic and Financial Officer, Solar 
  and Energy Loan Fund...........................................    28
    Prepared statement...........................................    30
Bell, Hon. Rusty, Commissioner, Campbell County, Wyoming.........    80
    Prepared statement...........................................    83
    Response to additional questions from Senator Carper.........    86
Isaac, Hon. Jason, Director, Life: Powered, A Project of the 
  Texas Public Policy Foundation.................................    88
    Prepared statement...........................................    90
    Response to additional questions from Senator Carper.........    95

                         ADDITIONAL MATERERIAL

Statement of American Enterprise Institute.......................   104
Testimony of:
    Hon. Debbie Dingell..........................................   114
    Ajulo E. Othow, Esq..........................................   134
    Alaska Power Telephone Company...............................   137
Letter from:
    Values In Actioin Sealaska...................................   141
    Ucore Rare Metals Inc........................................   143
    King Cove Alaska.............................................   145
    Mike Craft, Alaska Environmental Power LLC Managing Partner..   147
    City of Pelican..............................................   148
    Southfork Hydro..............................................   149
    Alaska Power and Engineering.................................   151
    Viking Lumber Company, Inc...................................   152
Report from Goldman School of Public Policy......................   156
Testimony from Connecticut Green Bank............................   194
EESI Environmental and Energy Study Institute....................   199
Testimony of Mary Templeton President and CEO of Michigan Saves..   253
Statement of Materials for Accordion Folder/Background for TC....   256
Letter from NRDC National Resource Defense Council...............   259
Statement from Green Banks State Local and Tribal Government.....   261
NREL National Renewable Energy Labratory, Renewable Electricity 
  Futures Study..................................................   264
Princeton University Net Zero America Interim Report.............   319
Statement of RMI Energy Transformed..............................   664
Americans Jobs Plan: Fact Sheet..................................   695
Report of Leaders Summit on Climate..............................   722
Analysis from A Verisk Business Wood Mackenzie...................   729
E2 Business Leaders Letter of Support for S. 283.................   736

 
        LEGISLATIVE HEARING ON S. 283, NATIONAL CLIMATE BANK ACT

                              ----------                              


                        TUESDAY, APRIL 27, 2021

                               U.S. Senate,
         Committee on Environment and Public Works,
    Subcommittee on Clean Air, Climate, and Nuclear Safety,
                                                    Washington, DC.
    U.S. Senate Committee on Environment and Public Works 
Subcommittee on Clean Air, Climate, and Nuclear Safety 
Washington, DC.
    The committee, met, pursuant to notice, at 2:48 p.m. in 
room 406, Dirksen Senate Office Building, Hon. Edward Markey 
(chairman of the subcommittee) presiding.
    Present: Senators Markey, Carper, Inhofe, Lummis, Boozman, 
Ernst.

           OPENING STATEMENT OF HON. EDWARD MARKEY, 
          U.S. SENATOR FROM THE STATE OF MASSACHUSETTS

    Senator Markey. I am very pleased to call this subcommittee 
to order for a legislative hearing on S. 283, the National 
Climate Bank Act. Thank you to my Ranking Member, Senator 
Inhofe, and to the Chairman and Ranking Member of the Committee 
on Environment and Public Works, Senator Carper, who has joined 
us, and Senator Capito, who I think is going to join us, as 
well. I want to thank them for their invaluable partnership in 
giving us this opportunity to hold this hearing and for joining 
us today.
    It is my pleasure to welcome my colleagues on the 
subcommittee, as well as our witnesses, to a discussion of the 
National Climate Bank Act, which would create and capitalize a 
national climate bank, also known as a clean energy and 
sustainability accelerator. The dangers, disasters, and damages 
of the climate crisis are no longer hypotheticals. The climate 
crisis has fully arrived, and we have both an imperative and an 
opportunity to act to protect the economy, preserve American 
lives, create new jobs, and establish the United States as a 
global leader in a clean energy future. The legislation we will 
discuss today, the National Climate Bank Act, provides a 
practical and economic solution to all of those problems. It 
puts people to work. It helps rebuild homes, schools, and 
communities. It tackles the climate crisis, and it has 
environmental and economic justice at its core.
    This legislation, which has bipartisan support in the 
House, would leverage new private investments, support local 
solutions tailored from local problems, buildupon a model with 
an existing track record of success, and will ensure that no 
community is left out of the clean energy future.
    There are projects in every community that need to get done 
now. Homes need new roofs, new windows, new heating systems. 
Communities with abandoned mines and degraded lands need money 
to rebuild, reforest, and start their economies. Industries 
need funding for efficiency and decarbonization technologies, 
and carpenters and roofers and electricians and painters need 
work now in our Country, and every State, city, and town is 
best situated to develop their own set of priorities for their 
own sets of problems.
    That is why the National Climate Bank is so important. It 
would use proven techniques to provide funding for existing 
green banks, help start new green banks, and support direct 
investments into critical projects.
    The National Climate Bank Act would provide financial 
support for a range of projects, but would particularly 
prioritize helping communities that have been harmed by the 
retirement of carbon-heavy assets. With a National Climate 
Bank, communities can set up their own green banks to fund 
local projects, so in turn, directly to the National Bank for 
investments, credit enhancements, or other financial support.
    The National Climate Bank helps public money go further, 
with more than $7 of private capital leverage for each public 
dollar. Let me say that again: $7 of private capital unleash 
for every $1 of public investment. That means more local 
projects, more local jobs, and more clean energy benefits, 
without more financial risk.
    The National Climate Bank would prioritize projects to 
create jobs and serve low-income, minority, distressed, or 
rural communities, with a 40 percent minimum proportion of 
investment that would go to disadvantaged communities facing 
climate impacts. With a National Climate Bank, we can create 
more than four million blue-collar jobs. Four million blue-
collar jobs, unleashing an economic revitalization in areas 
that need it, creating new careers and supporting local 
communities for decades to come.
    I look forward to discussion of the details of this bill. I 
just think it holds enormous promise for ensuring that people 
in our Country, blue-collar workers, can point to a future that 
is more promising than anything that we have right now.
    Let me turn to recognize the Ranking Member of the 
subcommittee, my friend from Oklahoma, Senator Inhofe.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Well, thank you, Mr. Chairman. I would like 
to welcome our panel for the first Clean Air Subcommittee 
hearing of the 117th Congress. I would like to give a special 
thanks to Mr. Isaac and Commissioner Bell for joining us today.
    Before I discuss my thoughts on the Chairman's bill, I 
would like to say that I have known my colleague from 
Massachusetts for many years. We have served together. 
Actually, we don't agree on anything, but we love each other. 
We have had a very close relationship for a long time, and he 
is a true liberal, and while we disagree, I do have respect for 
him.
    I look forward to working, just as we have effectively with 
other Democrats. I always got along so well with Senator 
Barbara Boxer when I chaired this committee, and we got things 
done.
    In fact, we used to have the meeting over at Mitch 
McConnell's office at 12:15 every Tuesday. All the chairmen 
would get together, and when it came my turn, I would say, now 
from the committee that actually gets things done, and we did 
them. We accomplished a lot of things together, and I say the 
same thing with Chairman Reed, the Armed Services Committee.
    Now, I have serious concerns about the bill that we are 
discussing today. Sadly, it appears that the National Climate 
Bank Act may be phase one of Democrats' far-left climate 
agenda, the end goal, of course, being the Green New Deal. We 
all know the Green New Deal seeks to end our way of life as we 
know it: abolish fossil fuels, air travel, control how much 
beef we eat.
    This bill creates a federally funded D.C.-based climate 
bank solely focused on funneling $100 billion of taxpayer's 
dollars into green projects that are favored by Washington 
Democrats. While there are many issues with the bill, the 
bottom line is we simply don't need it. The bill's own findings 
indicate that in 2018 alone, there was over $100 billion 
invested in renewable energy and energy efficient projects.
    Furthermore, the bill does not take into account that the 
Department of Energy's loan program office is flush with cash, 
with more than $40 billion in loans and loan guarantees for 
energy projects. Even President Biden's $2 trillion slush fund 
for all things infrastructure plan devotes less than $30 
billion for a carbon bank. That is less than 2 percent, clearly 
not a real priority, and that says a lot.
    Second, let's talk about who controls the money in the 
bank: Washington activists. The Bank's Board of Directors would 
be handpicked by the President of cabinet officials in this 
Administration. A seat is given to the director of the 
unaccountable CFPB. That is a far cry from the nonpartisan or 
bipartisan standard for Federal boards and commissions we have 
today. This Board would likely be used to reward political 
allies of Washington Democrats at the expense of the taxpayer 
dollars.
    Worse, nothing in this bill prevents the Bank from being 
used as a slush fund for billionaires and other politically 
connected Democrats.
    Finally, this bill places coal country in its crosshairs. 
It establishes a Cash for Carbon program to force the closure 
of reliable coal-fired power plants and even clean natural 
gasfired power plants as well. That would be devastating to 
communities across America, including my State of Oklahoma and 
Gillette, Wyoming, where our witness, Commissioner Bell, 
resides.
    The winter vortex from February reminded everyone that 
renewables alone won't keep the lights on; we need coal and 
natural gas. I could go on, but the simple fact is, we 
shouldn't risk taxpayer dollars in loans to well-connected 
industries to the left. Other than that, it sounds like a good 
bill.
    [Laughter.]
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Markey. Thank you, my friend, so much, for that 
optimistic, forward-looking opening.
    May I add, as well, Senator Carper, to the list of chairmen 
who are very productive in working together in a bipartisan 
fashion, and that would be my hope on this legislation as it is 
all unveiled and fully understood.
    Toward that goal, we begin with our first witness, Senator 
Chris Van Hollen, from the State of Maryland, with whom I have 
partnered in the drafting of this legislation, and who has 
always been ultimately a pragmatist in this legislative 
process, so Senator Van Hollen, whenever you feel comfortable, 
please begin.

          OPENING STATEMENT OF HON. CHRIS VAN HOLLEN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Van Hollen. Thank you, Chairman Markey. Let me 
start by thanking you and Ranking Member Inhofe, Senator Ernst, 
and all the members of the subcommittee for holding this 
hearing.
    I am pleased to be joined by the Chairman of the Committee, 
Senator Carper. In fact, I am pleased to join all of you as a 
proud alumnus of the Environment and Public Works Committee and 
as the coauthor with Chairman Markey of the National Climate 
Bank Act.
    I believe we have a duty in our Country to avoid the 
ongoing rising harm and disruption caused by huge emissions of 
greenhouse gases. The costs of doing nothing about climate 
change are real and staggering. But rather than focusing solely 
on the costs of inaction, we should also focus on the 
opportunities for action, opportunities to build a stronger 
economy and generate millions of new home-grown, good-paying 
jobs of the type that Senator Markey described, that put people 
to work addressing this urgent crisis.
    The bottom line is this: a $100 billion Federal investment 
in a National Climate Bank, also known as a Clean Energy 
Accelerator, would create four million American jobs in 4 
years. Put simply, we need a National Clean Energy Accelerator 
to put Americans to work at the cutting edge of a clean energy 
economy.
    Our global competitors certainly know the economic stakes. 
Every day, China pours more and more money into clean energy in 
a push to corner the market. It is part of both their Made in 
China 2025 plan and their most recent 5-year plan approved just 
this March. Earlier this month, China's National Energy 
Administration announced that it intends to increase solar and 
wind power from 9.7 percent of the Country's total power 
consumption in 2020 to 16.5 percent by 2025. That is about a 25 
percent jump in a short time from where they are today.
    By contrast, in the United States, wind and solar currently 
account for a mere 3.8 percent of our total energy consumption. 
As they expand their capacity in China, they will also export 
it to the world, generating more jobs for China. If we don't 
get into this game more seriously, we will fall further and 
further behind on clean energy, just as we did with 5G 
technology.
    Our own National Academies of Sciences, Engineering, and 
Medicine projected in February, a few months ago, that we will 
need to mobilize $2 trillion in clean energy investments over 
the next 10 years to meet our climate goals. To achieve that 
goal, they, our National Academies of Sciences, recommend that 
we create a National Clean Energy Accelerator, exactly what is 
being proposed in this bill. An Accelerator would be a magnet 
that attracts billions of dollars of private capital to put 
Americans to work building a cleaner energy economy.
    In fact, it is estimated that for every $1 we put into this 
Accelerator, we will draw at least $3 to $5 of private 
investment, and as the Chairman said, up to $7 per dollar of 
public, and $7 of private to match the public dollar 
investment. This is a public-private partnership with a great 
multiplier effect, and it will give pioneering companies and 
entrepreneurs the boost they need to get over the finish line.
    We also know that this model works because it is already 
working at the State and local level. Years ago, I introduced a 
bill to create a Green Bank to stablish exactly this kind of 
Clean Energy Accelerator. The proposal was included in the 
American Clean Energy and Security Act, also known as the 
Waxman-Markey Bill, thank you for your leadership there, which 
passed the House in 2009. While the Waxman-Marley Bill did not 
make it out of the Senate, the idea of establishing Green Banks 
caught fire in different parts of the Country and helped launch 
the Coalition for Green Capital, which you will hear from 
today. In fact, Mr. Chairman, the States of Louisiana, Ohio, 
Florida, Maryland, and Hawaii, very different States, all have 
a climate bank, and they now exist in over 37 States and the 
District of Columbia and are supported by Governors of both 
parties.
    While they are generating important investments in clean 
energy technology, they cannot be brought to scale without this 
National Bank to achieve our national goals, so that is why we 
need to do this at the Federal level. We can help turbo-charge 
private investment, fortify our energy grid, and create 
millions of clean energy jobs, including in those communities 
where fossil fuel plants have closed. Forty percent of the 
investments made by our proposed Clean Energy Accelerator would 
be directed to underrepresented groups to ensure that 
historically disadvantaged communities are not locked out of 
the transition.
    President Biden believes in this vision, too, and he has 
included Green Energy Accelerator in his American Jobs Plan. 
Colleagues, I urge you to seize this opportunity to join with 
me, Senator Markey, and Senator Carper and bipartisan leaders 
around the Country to support a National Clean Energy 
Accelerator.
    Thank you, Mr. Chairman.
    Senator Markey. Great. Thank you, Senator Van Hollen. Thank 
you so much for all of your leadership, and your testimony 
reflects the fact that you are an alumnus of the Environment 
Committee, so thank you so much for your great leadership in 
this Congress.
    Now, let me turn to our second panel of witnesses. I am 
very pleased to have Hon. Reed Hundt, chairman and CEO of the 
Coalition for Green Capital joining us today. Mr. Hundt has 
worked on these issues for many years, so we thank you for your 
expertise with the subcommittee today.
    We are also fortunate to have with us M. Duanne Andrade, 
the chief strategic and financial officer of the Solar Energy 
Loan Fund joining us this morning. She knows what it means 
through personal experience to implement a green bank and 
deliver benefits to real people, so we welcome you today. Now, 
I would like to recognize Senator Lummis to introduce 
Commissioner Bell, who hails from her home State of Wyoming. 
Senator Lummis, if you are with us.
    Senator Lummis. Thank you, Chairman Markey. It is my great 
pleasure to introduce Campbell County Commissioner Rusty Bell 
to our subcommittee. Commissioner Bell was born and raised in 
Gillette, Wyoming, where he and his wife, Toni, have raised 
their two sons. Currently, Rusty serves on the Wyoming County 
Commissioner's Association, and he is on the Executive 
Committee, chairs the Revenue Committee, and is very a very 
active County Commissioner in the State of Wyoming. He was 
nominated to serve as Chairman of his Board of County 
Commissioners in 2017 and 2019. He has been a tireless fighter 
and champion of his county, Campbell County, in Cheyenne, our 
State capital, and now, here in Washington, DC.
    He happens to have just opened an ax throwing 
establishment, too, called Axe House, with a marketing tagline 
of ``let's bury the hatchet,'' which is a great tagline to 
bring with you to Washington. So I am really pleased, Mr. 
Chairman, to introduce one of Wyoming's finest, Commissioner 
Rusty Bell.
    Senator Markey. Thank you, Senator, and welcome, Mr. Bell.
    Finally, I am going to turn to Senator Inhofe to welcome 
Hon. Jason Isaac, the director of Life:Powered, A Project of 
the Texas Public Policy Foundation.
    Senator Inhofe. Thank you, Mr. Chairman. It is my pleasure 
to introduce Hon. Jason Isaac, the director of Life:Powered, 
which is A Project of the Texas Public Policy Foundation. Jason 
is a fourth-generation Texan and a former State representative 
from the Texas hill country. He has dedicated much of his life 
to public service. Since 2018, he has led Life:Powered, which 
is focused on expanding America's understanding of energy and 
environmental policy. He is an expert in a variety of issues, 
including one that we are discussing today. Welcome to our 
committee, Jason, and thank you for being here.
    Senator Markey. Wonderful. Let me just turn to our full 
committee Chairman, Senator Carper.
    Senator Carper. I will be very brief. I have a couple of 
votes I am going to weigh in on, and one of them I spent a lot 
of time, several of us spent a lot of time trying to get John 
McCabe confirmed as Deputy Administrator of the EPA, so I am 
going to slip out of here. Who mentioned bury the hatchet? Who 
mentioned that? It was Cynthia, wasn't it?
    Senator Markey. Cynthia Lummis.
    Senator Carper. Senator Lummis? Yes. We, for a couple 
hundred years in the State of Delaware, 2 days after the 
election, we have had something called returns day. Winners and 
losers come to Georgetown, Delaware, the southernmost county 
seat of our State. We have a brunch together at our community 
college, Delaware Tech. When the brunch is over, we all go 
outside, winners and losers ride together in the same 
horsedrawn carriage with their families.
    We have thousands of people show up, they close the school 
for kids to come, and they get autographs there. Sometimes we 
have a President-elect show up, sometimes a Vice President-
elect shows up, and there is a short program, patriotic songs, 
a couple of prayers.
    Then we have this ceremony where we bury the hatchet. We 
take a large aquarium, a glass aquarium that is full of sand 
from Rehoboth Beach, Delaware, about half full. The party 
leaders each take this big hatchet, and they grab it, they each 
grab a piece of it, and they put it down in the sand, and they 
cover it up with the other sand. They literally bury the 
hatchet.
    When it is all over, we have parties and people open up 
their homes and their businesses and maybe have a libation or 
two. By the end of the day, the pain of winning or losing, the 
joy of winning, has kind of subsided, and we say OK, now, let's 
figure out how to work the other good things in. It is a 
wonderful, wonderful tradition.
    I once explained to Frank Lautenberg about the tradition of 
burying the hatchet in Delaware. He said, if we had that 
ceremony in New Jersey, we would bury the hatchet, but it would 
be in the back of the opponent's head. Fortunately, that is not 
our tradition. I couldn't help but mention it.
    Thank you very much for this hearing, and to both of our 
leaders of this committee for your spirit of collaboration, 
even if you don't agree on everything.
    Senator Lummis. Thanks for telling that story, Mr. 
Chairman.
    Senator Carper. You are welcome.
    Senator Markey. Thank you, Mr. Chairman, for that story. 
When I was first elected as a State representative in 
Massachusetts, where politics is a full-contact sport at all 
times, after I won my first race, which I did not realize would 
have such an event, I was 25 years old. There was something 
called a crow supper, where the losers have to eat crow. But 
they cannot speak at it, which in the hands of some winners, 
gave the winners yet one more opportunity to humiliate the 
loser and to use a hatchet in a way that Frank Lautenberg 
described, rather than you.
    So that was my introduction to politics, that crow supper, 
and hopefully here, after the election of 2020, we will be able 
to reflect the philosophy that Delaware brings to it, and we 
can come together to work for the common good of the people of 
the United States of America.
    So, let me begin then, by turning to you, Mr. Hundt. We 
welcome you, and again, whenever you feel comfortable, please 
begin.

 STATEMENT OF HON. REED HUNDT, CHAIRMAN AND CEO, COALITION FOR 
                         GREEN CAPITAL

    Mr. Hundt. Thank you very much, Mr. Chairman, and it is an 
honor to be with you and Ranking Member Inhofe, Committee Chair 
Carper, Senator Ernst was here earlier, and Senator Lummis here 
virtually. It is also a great pleasure to follow my home State 
Senator, Chris Van Hollen.
    I am here in the capacity of CEO and co-founder of the 
Coalition for Green Capital. That is a non-profit that, for 
more than a decade, has specialized in creating green banks. 
Mr. Chairman, when you and Senator Van Hollen were in Congress 
in 2009, you collaborated on the first version of legislation 
creating a National Green Bank, and although that did not 
happen then, that concept led to our nonprofit.
    In turn, we have helped launch now 21 green banks in 15 
States and the District of Columbia, and we are in talks to 
create green banks in 22 more States. The most recent addition 
to this bipartisan movement comes from Alaska, where Republican 
Governor Mike Dunleavy introduced legislation to create a green 
bank, and the dean of the House Congressman, Don Young, 
endorsed the House version of your bill just a couple weeks 
ago.
    All of these green banks, the ones that exist and the ones 
that are struggling to exist, are in desperate need of capital. 
One of the purposes of your act is to provide $100 billion to 
this nonprofit called the Clean Energy and Sustainability 
Accelerator. One of the things it would do would be to 
distribute capital to all of these green banks, and then find 
people to create them in the remaining States.
    The Accelerator would also partner with private firms to 
invest more than $400 billion of combined public and private 
money during the next 4 years, and then over 10 years, more 
than $800 billion in building the new clean power platform. 
That is the $1 public money plus $7 of private money that you, 
Mr. Chairman, spoke about in your opening remarks.
    These investments will create, on average for the decade, a 
million jobs a year, and they will deliver one fifth of all the 
emissions reductions needed for the United States to get to 
zero by 2050. We make these predictions from experience as well 
as economic analysis. Existing green banks have attracted that 
much private money for every one of their public dollars.
    In fact, the existing green banks have more than $20 
billion in backlogged projects waiting for the Accelerator's 
funding. Every one of those projects also is an indication of 
the number of people who are waiting to be hired doing that 
work.
    This bill, you can see, is a big part of the American 
response to the climate crisis. To paraphrase the legendary CEO 
of Intel, Andy Grove, bad countries are destroyed by crises. 
Good countries survive them. Great countries are improved by 
them. The United States is a great Country, and facing this 
crisis, we only have to remember who we are and how we can 
improve.
    Since our founding, we have trusted technology and 
investment to transform our Country for the better over and 
over again, and our will to change enables us to achieve the 
five goals necessary for winning the climate war in the next 15 
years. Wind and solar power have to increase their market share 
by six times. High-voltage lines have to link offshore 
windbreak plains and desert solar to every distribution 
utility. Battery storage has to be installed strategically in 
the grid. Heavily driven vehicles have to be powered by 
electric motors, and last, the transition from carbon to clean 
has to be true.
    That is the word used by the United Mine Workers of 
America. A true transition delivers not just clean power, but 
justice to communities harmed by pollution, hit by job loss, 
and cut out of decades of gains enjoyed by the rest of the 
Country. That is why, in your bill, 40 percent of the money 
would go specifically to low to moderate-income communities 
impacted by the legacy of the carbon platform and at risk 
because of the transition.
    Andy Grove also said, in order to build anything great, you 
have to be an optimist, and we can be optimistic about building 
this great new clean power platform because a quarter of a 
century ago, we transformed the system just as longstanding, 
complex, and according to some, resistant to change. I am 
talking about the communications platform, that in 15 years 
changed from analog to digital, from wiring to wireless, from 
voice to data.
    It was public action and private investment that 
accelerated that transition. We led the world in that change, 
and Americans on every rung of the economic ladder benefited. 
Now we have the chance to do something just as hard, certainly 
as important, and we don't have a moment to lose. Fortunately, 
we are a Country of optimists. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hundt follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Markey. Thank you, Mr. Hundt, very much.
    Our second witness, again, is Ms. Andrade. You are 
recognized, so whenever you are ready.

 STATEMENT OF M. DUANNE ANDRADE, CHIEF STRATEGIC AND FINANCIAL 
              OFFICER, SOLAR AND ENERGY LOAN FUND

    Ms. Andrade. Good afternoon, Chairman Markey, Ranking 
Member Inhofe, and members of the committee. It is a great 
honor to be here with you today in this important hearing.
    My name is Duanne Andrade, and I am the Chief Financial and 
Strategic Officer for Florida's green bank, the Solar and 
Energy Loan Fund known as SELF. We are based in Fort Pierce, 
Florida and operate statewide and have small pilots in South 
Carolina, Alabama, and Georgia.
    I am here today as a witness to the benefits that can be 
achieved through the passage of Senate Bill 283, the National 
Climate Bank Act.
    Eleven years ago, the St. Lucie County Commission led by 
Commissioner Doug Coward created SELF with a $3 million grant 
from the Department of Energy that was embedded in the 2009 
American Recovery and Reinvestment Act after the housing market 
crisis. Today, SELF is an independent, certified, non-profit 
Community Development Finance Institution, otherwise known as 
CDFI, and a founding member of the American Green Bank 
Consortium.
    Three years after SELF was founded, I joined the 
organization, and a few years later, I am happy to say that the 
founder, Doug Coward and I, got married. Because we were 
struggling too hard to keep SELF afloat, we decided to join 
forces, and now we co-lead the organization as husband and 
wife.
    Prior to joining SELF, I worked for many years in 
development finance. This is where I first experienced the 
power that innovative financing models have to unlock economic, 
environmental, and social benefits, especially in under-served 
communities. An important lesson learned was that the financial 
systems relying on credit scores and traditional underwriting 
methods leave too many people behind. They do not gauge or 
capture the true credit worthiness of LMI communities.
    SELF's mission is to rebuild and empower underserved 
communities, providing access to affordable, innovative 
financing for sustainable property improvements. Simple. We 
make loans, unsecured loans, for residential energy efficiency, 
clean energy, and resilience projects. Roofs, windows, air 
conditioners, basic things. Mostly, we do this to LMI 
homeowners, but our innovation in the space has been to approve 
loans based on ability to repay, regardless of credit scores.
    These small loans are helping people save on energy bills, 
build equity, increase safety, health, quality of life, and 
advanced financial inclusion. Forty-two percent of all U.S. 
households are low to moderate income. These are the average, 
working-class families who mostly live in older homes that are 
more likely to be inefficient, have high energy burdens, and 
need structural upgrades to withstand climate impacts.
    These average, working-class people turned out to be our 
unsung heroes during the COVID-19 pandemic. They are our 
teachers, our nurses, our first responders, grocery store 
workers, janitors. This is America. Shouldn't they be able to 
afford healthy, safe, climate-resilient homes, especially in a 
developed country?
    SELF and all green banks also foster jobs. We have a 
network of over 600 contractors who use our financing. For 
example, Sea Coast Air Conditioning, a mom-pop shop in Fort 
Pierce, Florida has done over a million dollars in new business 
with our financing, specifically in LMI communities.
    I would like to introduce you also to some of our clients. 
I don't know if you can see on the screen. Meet Pamela Turner, 
a U.S. veteran. Are you able to see the image? No? Well, Pamela 
Turner is a U.S. veteran, single mother of four, cancer 
survivor. She could not get a loan to replace her roof that was 
leaking, had buckets around her house, mold was growing, her 
children were unhealthy and unsafe. Nobody would give her a 
loan.
    A contractor brought her to us. We were able to approve her 
for a loan to fix her roof, and she got our lowest-cost loan, 
despite her poor credit. Today, she is enjoying safety, but 
also, she has been able to gain access to insurance, and she is 
also rebuilding her credit.
    I am sorry you can't see this, because another example 
would be Carol, a widow recovering from back surgery. Her A/C 
goes out; it is 102 degrees, sweltering heat in Florida, and 
nobody will give her a loan because her husband who passed away 
had all of the credit. She had none. She comes to us; we are 
able to give her a loan, a low-cost loan, to get a 
highefficiency air conditioner that she could afford. That is 
the picture showing her receiving that loan.
    So, just to wrap up, SELF has done $17 million in loans, 74 
percent of those for low and moderate income families. Our 
average default rate is less than 2 percent.
    However, after 10 years of arduous work, we still have only 
tapped into less than 1 percent of the potential market that 
needs our services. A National Climate Bank would help SELF and 
other green banks across the Nation catalyze billions of 
dollars in investments to rebuild our communities, uplifting 
our everyday heroes, both workers and small businesses with 
sustainable, long-term benefits.
    This is not asking for charity. We are asking you to make a 
sound and impactful investment to revitalize and rebuild our 
Country and pave the way into the future. Thank you.
    [The prepared statement of Ms. Andrade follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Markey. Thank you very much for your testimony, and 
now Commissioner Bell, if you can hear us, please begin.

 STATEMENT OF HON. RUSTY BELL, COMMISSIONER, CAMPBELL COUNTY, 
                            WYOMING

    Mr. Bell. Thank you, Mr. Chairman, Chairman Markey and 
Ranking Member Inhofe, and Senator Lummis, thank you for the 
nice introduction.
    Also, Senator Carper, thank you for the bury the hatchet 
story. I will be using that.
    I am Rusty Bell. I am a member of the Board of County 
Commissioners in Campbell County, Wyoming, located in 
northeastern Wyoming. I am currently serving my third year of 
my second term as a member of the board. Thank you for the 
opportunity to talk to you about S. 283, the National Climate 
Bank Act, and its potential impact on my county, Campbell 
County, Wyoming, and the citizens.
    Campbell County encompasses about one-tenth of 1 percent of 
the entire land mass of the United States, yet we produce 
approximately seven quadrillion BTUs of energy annually, 
providing from one county nearly 10 percent of the entire 
Country's energy demand. Most of that demand takes form in 
lowsulfur coal from the Powder River Basin. Wyoming produced 
about 39.2 percent of the U.S. coal in 2019, with two of the 
largest mines, North Antelope/Rochelle and Black Thunder, both 
located in Campbell County, having produced 22 percent of that 
total. Every single day, trains containing 130 cars filled with 
coal depart my county filled with Wyoming coal so that your 
constituents can safely and affordably turn on their lights and 
heat. Campbell County coal is what keeps the grid reliable. 
According to the U.S. Geological Survey, there are 
approximately 25 billion tons of economically recoverable coal 
resources in Campbell County.
    In addition to our abundant coal resources, Campbell County 
is also Wyoming's No. 1 producer of oil, producing over 19 
million barrels of oil in 2020, which was enough to account for 
almost 23 percent of total Wyoming production. We also produced 
over 84 million Mcf of natural gas and are a leading producer 
of uranium though in situ mining. When you talk about energy 
and power generation, Campbell County really is all about ``all 
of the above.'' In addition to our abundant fossil fuel 
resources, we also have some of the best wind potential in the 
Nation.
    Gillette, our county seat, is known as the energy capital 
of the Nation for very good reason. However, our community has 
been significantly impacted by declining production of coal and 
drops in oil production. Production of Powder River Basin Coal 
in Campbell County increased steadily from the 1980's through 
2008. The 1970's and 1980's were boom times in Campbell County 
as the opening of large surface coal mines, as a result of the 
Surface Mining Control and Reclamation Act of 1977, SMCRA, and 
the passing of the Clean Air Act, made Campbell County's 
lowsulfur, sub-bituminous coal very attractive for power 
generation.
    Though we increased steadily from the 1980's through 2008 
to a record production of 446 million tons per year that year, 
we have also seen our production fall off very quickly in the 
past couple of years, with calendar year 2020 production of 
coal in Campbell County amounting to approximately 210 million 
tons, more than a 50 percent drop.
    Our population of approximately 46,000 has grown resilient 
to the rise and fall of energy prices affecting our lives, but 
we have never been as heavily impacted as recently. The 
majority of Campbell County's budget and the budget for our 
schools is derived from property taxes and ad-valorem taxes, 
which are property taxes assessed by the county on the value of 
produced minerals. In Campbell County, upwards of 70 percent in 
some years and as high as 90 percent in other years of our 
assessed valuation is attributed to mineral production.
    Campbell County's 2014 assessed valuation, driven by high 
oil prices for most of that year, was nearly $46.2 billion. Our 
assessed valuation for 2020 was $4.2 billion, based upon 2019 
production. This 32 percent decrease in assessed valuation, 
which equated to a 32 percent decrease in ad valorem taxes, has 
been further compounded by a nearly 50 percent drop in sales 
tax collection.
    Our county was fortunate that we were able to adjust to 
this drop through proactive planning, savings, no debt, and 
sound fiscal policy. However, our projections for 2020 
production in preparing for our Fiscal Year 2021-2022 budget is 
$3.2 billion, a $1 billion-dollar drop.

    Though Wyoming's schools are set up in a way that revenues 
are redistributed between school districts so that all Wyoming 
kids receive a quality education, the Wyoming K-12 system is 
running at about a $300 million dollar deficit following the 
legislative session that just ended. Fossil energy funds the 
Wyoming education system.

    I would encourage the committee to consider the impacts of 
Sections 5245(f) and (g) on my community and in the 
implementation of Section (h) pertaining to the prioritization 
of projects. Campbell County and Wyoming, who have both 
benefited from historically strong mineral economies, are both 
aware of the conversation surrounding emissions and carbon.
    The State of Wyoming has invested $15 million in the 
Integrated Test Center at Dryfork Power Station Plant in 
Gillette, has partnered with the XPrize to use this facility to 
find beneficial uses for power plant flue gases. The XPrize 
recently announced their winners, which included CarbonBuilt, a 
team from UCLA that demonstrated its technologies at the ITC. 
Dryfork Power Station also is home to Carbon Safe Carbon 
Capture Project.

    Campbell County intends to continue fully developing our 
existing mineral resources. We are also looking to the future, 
recognizing we need to find new uses for our existing resources 
and new ways to put people to work.

    Additionally, because of the significant amount of tax 
revenues the county generates from mineral extraction 
activities, for many of which the long-term opportunities are 
being threatened, proactively addressing economic development 
and looking for option to retrain our work force are essential. 
Unfortunately, the money for these activities is mostly 
nonexistent.
    Campbell County not only leads in energy production, but 
also conservation and reclamation practices. No ones in America 
care more about the environment of Campbell County that the 
residents of Campbell County. We breathe the air, we drink the 
water, we ranch and farm the land. We have incredible 
populations of wildlife in Campbell County, including pronghorn 
antelope, deer, elk, sage grouse, and many birds of prey, 
including bald and golden eagles and ferruginous hawks. No 
energy development happens without these environmental factors 
taken into account.
    For these reasons, I would encourage the committee to not 
forget communities who stand to be the most impacted by the 
implementation of the proposed National Climate Bank Act look 
at including or expanding the legislation to include 
opportunities for economic development, retraining, and 
research for new uses for our mineral resources. Examples like 
the ITC could further develop to generate beneficial uses for 
Campbell County's mineral resources, which have helped power 
the U.S. for generations. We have been blessed with these 
resources, and our citizens deserve the opportunity to continue 
to efficiently and responsibly recover these American assets.
    Chairman Markey, Ranking Member Inhofe, Senator Lummis, I 
appreciate the opportunity to testify before you. I am prepared 
to stand for any questions. Thank you.
    [The prepared statement of Mr. Bell follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe.
    [Presiding] Thank you very much.
    Since the Chairman is down voting right now--oh, you were 
gone. I didn't mean to leave you out. I thought you had already 
gone. Go ahead. Mr. Isaac, you are recognized for your 
statement.

   STATEMENT OF HON. JASON ISAAC, DIRECTOR, LIFE:POWERED, A 
         PROJECT OF THE TEXAS PUBLIC POLICY FOUNDATION

    Mr. Isaac. Thank you, Senator Inhofe. Thank you, Chairman 
Markey and members of the committee. I am Jason Isaac, Director 
of the Life:Powered Project at the Texas Public Policy 
Foundation, a national initiative to raise America's energy IQ. 
During the 8 years that I served in the Texas House of 
Representatives, I served on the Environmental Regulation, 
Energy Resources, and Economic Development Committees. I was 
successful at passing legislation to further Texas 
environmental leadership while promoting economic prosperity, 
two things that go hand in hand.
    The idea of a Federal Climate Bank has been proposed for 
years, and the market has responded. Wall Street and global 
financial firms and the Climate Action 100+ are colluding to 
force companies they invest in to divest from fossil fuels, 
denying financing and investment unless those energy businesses 
kowtow to arbitrary and expensive emission reductions and to 
prop up these financial institutions' massive investments in 
green energy that, without government subsidies, would 
otherwise fail. In reality, there already is a climate bank.
    This climate cartel will prove a disaster for our entire 
economy. Restricting financing to energy producers based on 
political whims kill good-paying jobs, increase our cost of 
living, and reduces the capital available to invest in the 
energy technologies of the future. The less energy the United 
States is free to produce, the more we and our allies are 
forced to rely on hostile, unstable nations with lax 
environmental and labor standards. This is harmful not just for 
energy businesses, but also for each and every American.
    We recently spoke with Mike Dunleavy, the Governor of 
Alaska, whose State is having to invest its own money to 
develop new Arctic oil and gas reserves because the major banks 
will not invest there. In Texas, we have heard from numerous 
energy producers that they are struggling to sustain and grow 
their businesses because of banks refusing to finance them. The 
level of collusion occurring within this energy discrimination 
movement makes a free and competitive market nearly impossible, 
and the government should certainly not engage in the same kind 
of bully tactics.
    Contrary to the narrative that our environment is bad and 
getting worse, and that it is all our fault, America is a world 
leader in environmental protection. We are the only highly 
populated nation to meet the World Health Organization's 
standards for safe air, and we have cut emissions of criteria 
pollutants by 77 percent in the last 50 years. I have mentioned 
to some of your colleagues that, of all the technology the 
Chinese steal from us, it would be nice if they would utilize 
our pollution control technology.
    In southern California, ozone levels are 65 percent higher 
due to Asian air pollution that makes its way across the 
Pacific, and when it comes to climate change, the news is good. 
The science suggests that climate will remain mild and 
manageable.
    You and I and everyone in this room are 99 percent less 
likely to die in a climate-related disaster than our 
grandparents were. Improved technology and reduced poverty, 
both of which fossil fuels provide, affect our adaptability far 
more than carbon dioxide emissions.
    Eliminating U.S. fossil fuel consumption completely by 
2030, doubling President Biden's proposal, would reduce global 
average temperatures by less than two-tenths of a degree at the 
end of the century.
    Instead of fixating on carbon dioxide emissions, the 
Federal Government should be focused on solving the real 
problems facing people here and now. If ever there was a 
crisis, it is global poverty. America and our vast energy 
resources, produced more responsibly that anywhere else on 
earth, hold the key to ending poverty as we know it.
    The recent blackouts in Texas that resulted in at least 111 
deaths should be a dire warning against even more 
marketdistorting policies. The market responded to those 
subsidies accordingly. Installation of wind and solar-generated 
electricity, unreliable variable forms of generation, have 
increased more than 200 percent in the last 10 years, while 
reliable thermal generation has declined nearly 5 percent.
    Now, the installed generation of the ERCOT Texas grid is 33 
percent unreliable variable generation. On the day of the 
blackouts, wind and solar provided just 8 percent of our 
electricity on the grid while fossil fuels and nuclear provided 
91 percent of our reliable electricity.
    I urge the committee not to proceed with any further 
consideration of a climate bank and instead focus on proposals 
that protect the American people's tax dollars. Thank you for 
your time.
    [The prepared statement of Mr. Isaac follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. OK, thank you very much. In the absence of 
our Chairman, I will go ahead with my questions, and I don't 
know who else is on WebEx. Do we have others? OK, well, I will 
go ahead and start.
    Mr. Isaac, earlier, I laid out my concerns that this bill 
lacks safeguards to prevent taxpayer dollars from subsidizing 
investments in liberal billionaires and other 
politicallyconnected individuals. We shouldn't be risking our 
hard-working people's tax dollars for investment in electrical 
vehicles or their charging stations for the residents of 
coastal States. If coastal States want to prop up green banks 
and subsidize their friends, then of course they can do it, but 
Oklahomans shouldn't be subsidizing them and risk investments.
    Mr. Isaac, is it possible the way the bill is written for 
Elon Musk or some of his billionaire buddies to get funding for 
their green ideas?
    Mr. Isaac. Absolutely, sir, and that is one of the reasons 
why I think people are fleeing California and moving to Texas 
and moving to Oklahoma, incredible, unreliable electricity, 
rolling outages were nothing new to them. Last August, when 
they happened, they were certainly something new to Texas, and 
that shouldn't be the case.
    But there are some concerns about oversight, much like when 
I was an elected official, wouldn't hire an ethics attorney 
without any experience. It is certainly a concern for oversight 
with the board for this particular piece of legislation.
    Senator Inhofe. Yes, very good answer. Mr. Chairman, we 
went ahead and started without you. Would you like to have me 
complete my questions?
    Senator Markey.
    [Presiding.] No, please.
    Senator Inhofe. All right, that is fine.
    Then also to you, Mr. Isaac, if Wall Street is already 
funding green projects to the tune of $100 billion a year, 
won't a government program like this just fund the worst 
projects that can't compete for private funding? Would that be 
the case?
    Mr. Isaac. Absolutely. When you look at what BlackRock is 
doing, they have over $9 trillion in managed assets. When they 
are part of this Climate Action 100+, it is really a cartel 
that is colluding to force energy businesses to divest of their 
business models for arbitrary reductions in emissions that 
aren't even named in the act. The Climate Action 100+ manages 
over $50 trillion in managed assets. That is a world leader.
    Looking at BlackRock alone, if you just look at them, they 
manage, if that were GDP, they would be the third largest 
Country in the world, and they are just really 20 percent of a 
Climate Action 100+ that is really looking to discriminate 
against energy producers responsibly here in the United States, 
arguably more responsibly than anywhere else in the world.
    Senator Inhofe. Thank you.
    Commissioner Bell, you are from Wyoming, and you know well 
the benefits of coal, as you said in your testimony. This bill 
seeks to close coal-fired power plants through its Cash for 
Carbon Program. Commissioner Bell, will you speak to the 
economic impact this plan would have on coal country? You are 
coal country, and in a way, we are, too.
    Mr. Bell. Certainly. Mr. Chairman, Senator Inhofe, thank 
you for that. I think that is why we would certainly be opposed 
to this. Coal really drives Wyoming, not only our area, but 
when I spoke in my testimony, all of our education in Wyoming 
is really funded by mineral production, most of that being 
coal.
    From 2000 to now, COVID bonus money actually paid for $2 
billion of school facilities across the States of Wyoming. So 
really, there is no answer for what would be the impact to 
Wyoming with something like this. Thank you, Mr. Chairman.
    Senator Inhofe. You bet. Would you expect Americans' energy 
bills to go up or down with the closing down of the coalfired 
power plants?
    Mr. Bell. I would certainly expect American's energy bills 
to go much higher. We are blessed with some very low energy 
prices in Wyoming, because we have mine mouth operations that 
provide incredibly affordable power. We can provide that to the 
rest of the United States, and extremely reliable power with 
that coal, if allowed to do so.
    Senator Inhofe. But it would result in much higher costs 
for energy?
    Mr. Bell. No question.
    Senator Inhofe. Mr. Chairman, in your absence, we finished 
the opening statements for our witnesses, and I used my time. 
Now I turn it back to you.
    Senator Markey. Thank you, Senator Inhofe. Thank you so 
much.
    Let me ask Mr. Hundt and Ms. Andrade questions about a bank 
and how it would operate, and who are the beneficiaries. 
Because of the success of these programs, States like 
Massachusetts and Alaska have instituted banks, and the good 
news is, a half a million people have moved to Massachusetts in 
just the last 10 years. They are moving because of all of these 
great green things that we are doing up in Massachusetts, 
amongst other things.
    So we have just got an incredible increase in our 
population as we are at the cutting edge in climate and clean 
energy issues. So as soon as these green banks start growing, 
their investments, we reap the benefits: good-paying, 
nonoutsourceable blue-collar jobs.
    That is the whole key to this bank concept. It is all 
local. None of this can go to China. None of this can be 
offshored. All of it is in the community. If someone wants the 
low-interest loans to redo the entire public housing system in 
West Virginia or Massachusetts, they can qualify for this. 
Lowinterest with a high probability they are going to pay it 
back.
    Default rates are very low in this bank model, and the 
community decides themselves if they are going to do it. No one 
makes them do it; it is just there, if it is going to be 
helpful to them.
    Mr. Hundt, could you talk about this blue-collar job 
creation engine of a generation that could be the climate bank?
    Mr. Hundt. Thank you, Mr. Chairman. The existing green 
banks, as I mentioned before, have about $20 billion in backlog 
projects. What are those projects? They are the kind of things 
that Ms. Andrade already talked to you about. House by house, 
contractors looking to renovate those homes, looking to put 
solar on the roof, looking to make those homes more resilient 
in the face of storms. These are blue-collar jobs.
    As we go across this Country, State by State, the impact of 
the climate crisis is quite a bit different in every State, but 
the one thing that is in common is that the rebuilding of the 
way we make energy and the way we distribute it and the way we 
consume it, in every single State is an opportunity to hire 
people at very, very well-paid jobs, literally in the job of 
rebuilding America.
    Senator Markey. So, for example, give us a project, and 
tell us which different professions would have to get hired in 
order to complete that project.
    Mr. Hundt. Let's take, as an example, a State where we have 
been talking to people right now who don't have the capital, 
want your bill to be passed, and want to be setting up a green 
bank. Let's talk about the State of West Virginia. In West 
Virginia, three quarters of all families own their own homes. 
That is much higher than the national average, but their median 
income is about $45,000, and the home is worth, on average, 
about $125,000.
    So, when they have to look at the job of renovating to put 
solar on the roof, to put in the heat pump, to lower their 
costs for utilities, which right now, are running at about 10 
percent of their income, when they look at what it costs to 
lower those particular expenses, what they are talking about 
is, can I pay to get a contractor to come in and do this work. 
Somebody to go on the roof, somebody to replace the window, 
somebody to put in the heat pump. Those are all different 
specialties, and there are people to do that work.
    Senator Markey. So, they are electricians?
    Mr. Hundt. Like an electrician, for example.
    Senator Markey. They are carpenters, they are HVAC?
    Mr. Hundt. That is all exactly right. Those are all 
different people. Anybody that is ever been through a 
renovation has an idea of how many different specialties are 
required.
    But here is the missing piece: they need a green bank to 
provide the upfront capital at a very low interest rate so that 
those people in those homes can afford to hire all those 
different work people.
    Senator Markey. OK. So, let me come back over to you, Ms. 
Andrade. Does the Solar and Energy Loan Fund that you run have 
a list of shovel-ready projects that would get people to work 
if we can pass an innovation bank, pass an accelerator that 
would get funding into the hands of people at the local-est of 
levels?
    Ms. Andrade. Yes. We currently have about $2 million in 
projects that are small, small-sized projects, average $10,000 
each, and that is just in the market that we are working in.
    During COVID, we saw our loan activity explode. It more 
than doubled because people are working, playing, studying, 
doing everything at home, and they had to upgrade their homes 
so that they could afford to run air conditioners, they had to 
upgrade to high-efficiency air conditioners, they had to fix 
roofs.
    Currently, that trend continues, where people need to rehab 
their homes, and especially low and moderate income people are 
the ones disproportionately affected by climate impacts. Every 
year, we have people that are still recovering from Hurricane 
Irma, with tarps on their roofs, and not only Florida. We are 
talking about our current market, we already have $2 million in 
projects, but then we are opening up south Florida in 
partnership with Miami-Dade County.
    We have current partnerships with Orange County, with 
Hillsborough County, St. Pete. We create these public-private 
partnerships because we are also helping them as a tool for 
development in their communities. Furthermore, I just want to 
note that we are also about to pilot a program at the Atlanta 
Housing Authority in Georgia, where we are going to help fix up 
these low-income houses so that the lower-income tenants can 
benefit from energy savings.
    Senator Markey. Again, and in fixing them up, who do you 
have to hire in order to do that? What community are you 
talking about?
    Ms. Andrade. Let's say, in Florida, in St. Lucie County.
    Senator Markey. In St. Lucie County.
    Ms. Andrade. We have roofers, we have a/c installers, we 
have solar installers. Here is the thing: we have a green jobs 
training center that is been set up, creating hundreds of 
training of jobs, and these are jobs that are sustainable jobs. 
By the way, the green job industry is one of the fastest-
growing industries right now. People are going to work putting 
solar on roofs, installing a/c. This is a working-class, 
typical job that sustains hundreds and thousands of families in 
our Nation.
    Senator Markey. Thank you so much. The Senator from 
Oklahoma?
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Markey. I am so sorry. Yes, I did not recognize 
Senator Lummis so that she could ask her round of questions.
    Senator Inhofe. Let me make a unanimous consent request to 
make as a part of the record, the American Enterprise Institute 
has a paper on this legislation. I would like to make this as a 
part of the record.
    Senator Markey. Without objection.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Markey. Similarly, I would like to submit for the 
record testimony by Representative Debbie Dingell, who is the 
lead on companion legislation in the House that would create a 
National Climate Bank. Without objection, so ordered.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Markey. Senator Lummis, you are recognized.
    Senator Lummis. Well, thank you, Chairman Markey, and I 
would sure like to see us focus on what can improve our air 
quality and improve the global climate, rather than picking 
winners and losers among the fuel sources, because we don't 
have to pick winners and losers.
    Our guest from Wyoming, thank you so much for being here. 
We are already a leader in Wyoming on innovation when it comes 
to carbon capture utilization and storage. Commissioner Bell, 
can you talk about the great work that is happening in Wyoming 
at the Integrated Testing Center in Gillette?
    Mr. Bell. Sure. Thank you, Mr. Chairman. Senator Lummis, 
thanks for the question.
    The Integrated Test Center was host to the XPrize that 
actually just wrapped up. A team from UCLA injected flue gas, 
CO2 from a flue gas from the Dryfork Power Plant into concrete 
blocks that actually made those blocks stronger, more 
affordable.
    On that same site, we have the Carbon Safe Project that is 
a University of Wyoming partner with Basin Electric and others 
to look at injecting 50 years' worth of CO2 from a power plant 
into the ground, and not only into the ground, but then looking 
at utilizing that in tertiary oil recovery. So it would be 
really nice to use some of our technologies to have an overall 
American CO2 strategy using really, all of the above, like we 
are in Wyoming, so thank you for the question.
    Senator Lummis. Yes, and I love what you are doing in 
Campbell County, because you are making the point that we don't 
have to eliminate fossil fuels in order to address climate 
issues and have clean air. What we need to do is innovate our 
way out of this, and Campbell County is leading the way to 
innovating in order to keep fossil fuels in the fuel mix in the 
cleanest way that they can possibly be produced. Kudos to 
Campbell County on that point.
    I am really surprised at some of my Senate colleagues who 
want to have taxpayers spending on intermittent green 
technology, while completely dismissing nuclear power. So, this 
question is for Commissioner Bell and Mr. Isaac. What role 
should nuclear play in our energy mix going forward?
    Mr. Bell. Mr. Chairman, Senator Lummis, I can go quickly, 
and then turn it over to Mr. Isaac. Really, what we need is an 
all of the above energy approach. I don't think anybody is 
going to be against green energy, but we need something that is 
going to be reliable. Nuclear is reliable; needs to be 
included. The same with fossil fuel energy. It needs to be 
included because it is reliable.
    I will turn it over to Mr. Isaac. Thank you.
    Mr. Isaac. Thank you, Commissioner. Thank you, Senator 
Lummis, for the question.
    When you look at nuclear, nuclear growth of reliable 
electricity should model GDP or our population, and we haven't 
seen that in years. It is a great baseload. It is not 
dispatchable, but it does provide a great baseload for our 
grid. We should be absolutely advocating for more nuclear.
    It is reliable, as I said, but then we need those 
dispatchable forms, kinds that can be ramped up and ramped 
down: natural gas, coal technology. You look at the mix, I 
believe, in Wyoming, where I think there is some of the most 
beautiful environment in the world, and I believe 86 percent of 
their electric generation mix is from coal.
    Then you look at the benefits from coal ash. We talked 
about CO2 being used to strengthen concrete. That is actually a 
mix of coal ash mixed in with concrete that makes it stronger. 
Now they are finding concentrations of rare earth elements a 
hundred times that found naturally, a hundred times the level 
of concentrations in coal ash. That stuff that is produced here 
in the United States, it is going into electronics. So there 
are some great opportunities, looking forward, to our energy 
here in the United States if we don't demonize some forms over 
others.
    Senator Lummis. Thank you both.
    With regard to the demonization, again, Commissioner Bell 
and Mr. Isaac, what would you say to people who have completely 
dismissed the notion of clean energy coming from fossil fuels?
    Mr. Isaac. I would look at our record over the last 50 
years. We have reduced harmful pollution 77 percent, while we 
are increasing our GDP, increasing our energy use, increasing 
our miles traveled, increasing our population. Every economic 
measure shows that economic prosperity and environmental 
leadership go hand in hand.
    Senator Lummis. Commissioner Bell?
    Mr. Bell. Yes, Senator Lummis, thank you.
    Every morning, I wake up, and most of the time, if it is 
not raining, I can see the Bighorn Mountains 50 miles away. So, 
it really is producing, like Mr. Isaac said, 86 percent of our 
electricity is coming from coal, and we have the most beautiful 
landscapes in all of the world, in my opinion. Wyoming is truly 
an amazing place, and I would welcome anybody to come out and 
see our place. Nobody cares about our area more than we do. 
Thank you.
    Senator Lummis. Well, thank you both so much, and if I 
would just have one more comment. If we spent as much money on 
climate change in India as we spend in the United States, we 
could make so much more progress on climate change, because 
they need the help more than we do. Money we spend here makes 
incremental changes at this point. If we would spend that money 
in India, the whole globe would have much cleaner air and less 
carbon.
    Mr. Chairman, thank you. I yield back.
    Senator Markey. Great. Thank you. I don't know if Senator 
Padilla is ready yet, but if he is not, and as soon as you are 
ready, Senator, please let us know.
    Let me ask you, Mr. Hundt, in your role as founder and CEO 
of the Coalition for Green Capital, explain the difference 
between what you do and what Blackstone would do. We heard 
about Blackstone today. What is the target for the green bank 
that you are proposing?
    Mr. Hundt. So, if you are working at Blackstone, and I have 
known the founder since college, so I think I speak from some 
knowledge, you are in the for-profit business in a very, very 
aggressive way. There is nothing wrong with capitalism, but the 
idea that 20, 25, 30 percent annual returns are possible in the 
kind of work that Duanne and I have been talking about, that is 
not viable. Those people in the examples today that I gave you 
of West Virginia, who need to spend $40,000 renovating their 
house, on average, they can't be paying somebody, a financier 
from New York at a profit rate of 25 to 30. They need low-cost 
capital.
    That is why the people in West Virginia are saying to us, 
please have this accelerator become law, and please set us up 
with capital, and as I mentioned before, we have 37 States 
where that is the picture all across the Country.
    I am not saying that we shouldn't have capitalism; that is 
why the seven private dollars are going to join with the one 
public dollar. But we need that special mix to be able to make 
sure that we are not pricing all these changes right out of the 
market and having it be that we have a two-tier system. If you 
are really, really rich, you can have solar on the roof, and if 
you aren't, too bad for you. That is exactly what you are 
trying to break through with your bill.
    Senator Markey. So, you are saying, Blackstone's not going 
to West Virginia, but this bank would be going there, up and 
down the streets of Charleston and Wheeling, and out in the 
rural parts of West Virginia, providing the very low-cost 
capital for individuals and small communities?
    Mr. Hundt. Exactly.
    Senator Markey. Yes. So, I think we should divide this 
question, just so we understand what the difference is, and why 
this bank is so necessary and so local. Again, Senator Padilla, 
I don't know if you have joined us that, but pending that, let 
me recognize the Senator from Oklahoma again.
    Senator Inhofe. Well, I appreciate that, Mr. Chairman. I do 
have a commitment on the floor in just 15 minutes, so I would 
just like to get a couple things with our great witnesses that 
we have today.
    First of all, Commissioner Bell, the White House Climate 
Czar, John Kerry, says that fossil energy workers can make 
solar panels, but Secretary Kerry refuses to acknowledge solar 
installers earn far less than oil rig workers or coal miners, 
which would be devastating to millions of hard-working 
Americans. Commissioner Bell, do you share my concern for lost 
wages under Secretary Kerry's Green New Deal, green scenario 
for fossil energy workers?
    Mr. Bell. Senator Inhofe, thank you for that question. Yes, 
it really, really concerns me that those jobs would not be 
located in Wyoming, for one, and that those jobs aren't going 
to be the same wages as mineral production. It really concerns 
me. I don't think that what he is proposing, honestly, is 
feasible. Thank you.
    Senator Inhofe. What do you think about that, Mr. Isaac?
    Mr. Isaac. Yes, I think it is, again, this fixation on 
carbon dioxide. Again, if we eliminate all fossil fuel use by 
2030, doubling President Biden's ambitious goal, the 
temperature mitigation using the same models that the United 
Nations and intergovernmental panel on climate change uses 
would mean there would be a less than two-tenths of a degree 
difference by the end of the century. But we would increase 
electricity costs more than twofold on the American consumers, 
for products that are predominantly made overseas, whether it 
is the rare earth elements that go into wind and solar 
technology that are mined in China, and places like the Congo 
in Africa that do not have the environmental or labor standards 
that we do here in the United States.
    UNICEF reports that over 40,000 children between the ages 
of 4 years old and 13-year-olds are working in mines in the 
Congo. Forty thousand children mining, so that we can have our 
solar panels and our electric cars and our computer technology, 
and those components that they are mining are all here in the 
United States. We should be mining and producing those products 
right here in the United States with our environmental 
leadership record that we have. No. 1, when it comes to access 
for clean and safe drinking water in the world, and No. 1 when 
it comes to reducing harmful pollutions of highly populated 
countries.
    Senator Inhofe. Yes. I appreciate that, and I think you 
covered it very well, the successes that we have had here, 
particularly in the United States.
    As you know, the Board of Directors would be entirely 
controlled under this advisory committee experience that we are 
talking about today, be controlled by Washington. Another 
serious fault is the structure of its 13-member advisory board, 
which would be chosen by the board of directors. The advisory 
committee would be responsible for advising the bank on its 
investment programs and briefing Congress on bank activities. 
None of the advisory committee members would be required to 
have any banking sector experience.
    I don't think I have ever run into this before, where they 
are putting someone in that advisory category that doesn't have 
any background in it at all. Do you agree that any bank 
advisory committee that lacks the banking sector experience 
would be imprudent and highly unusual? Can you think of any 
examples where that is actually happening today?
    Mr. Isaac. It would be incredibly unusual. Yes, I mentioned 
ethics attorneys, I wouldn't hire one that didn't have 
experience. My accountant, I wouldn't hire one fresh out of 
college, or maybe one that had no college experience 
whatsoever. That would be incredibly alarming to me.
    But you look at the Electric Reliability Council of Texas, 
and a lot of this came to light after the freeze that we saw in 
Texas in February, there were numerous board members, 
selfappointed, picked by the industry, that didn't even live in 
the United States, that didn't live in Texas. They certainly 
weren't served or lived in the area that they were supposed to 
be serving in that electric grid in Texas.
    It is much like, you are supposed to represent members of 
the State where you are from. You certainly don't want someone 
representing Oklahoma that is not from Oklahoma in the U.S. 
Senate, so that Board of Directors raises some alarms for me, 
just based on some recent experience that we have seen in 
Texas, and how unreliable our grid proved to be because we had 
outside leadership managing our grid that weren't from Texas.
    Senator Inhofe. That is good. That is a great statement. 
Mr. Chairman, I do have a commitment on the floor, but I 
appreciate very much the opportunity for our witnesses to be 
heard, because it is a significant piece of legislation, and we 
have opinions on it, as we have expressed.
    Senator Markey. Absolutely. Thank you for being here, 
Senator. Much appreciated.
    Again, I just want to come back to the mistaken notion 
about reducing greenhouse gases and increasing the economy in 
our Country. Massachusetts, again, is a great example where, 
from 2005 until 2017, Massachusetts cut our emissions by 25 
percent, and from 2005 and 2017, our economy went up 30 
percent.
    So, there is just a mistaken notion out there with regard 
to what happens when you make an effort to reduce greenhouse 
gases. Massachusetts is a perfect example, and a half a million 
people moved to our State in the last 10 years. So there is a 
model out there for, as my mother would say, working smarter, 
not harder, and taking low-cost capital to unleash a blue-
collar job revolution in our Country on things that a community 
needs anyway.
    A homeowner, the local mayor, something that will help them 
to do something and use local construction workers in community 
after community, not just in a small number of States, but in 
every State in the United States would be a beneficiary of 
this.
    I would like, if I may, Mr. Hundt, just to focus upon an 
analysis done by Vivid Economics that determined that the 
National Climate Bank could create more than four million jobs 
in 4 years if it was capitalized as $100 billion, and it would 
generate more than a sevenfold return on investment. Could you 
focus upon that? Four million jobs in 4 years, in our Country, 
using a green bank.
    Mr. Hundt. The reason that Vivid reached that conclusion is 
that they were able to talk to the existing green banks, like 
the one in Florida that you already heard about. They looked at 
the backlogged projects, the projects that should be being done 
right now by those electricians and roofers and other specialty 
people in the work force. They should be underway right now, 
but they are not occurring because of the lack of capital, 
because the money hasn't gone to this National Climate Bank, 
and we haven't yet got it, and we haven't yet been able to pass 
it on to the network of State and local green banks.
    Let's just take Alaska, for example. The Republican 
Governor Mike Dunleavy introduced legislation to create a green 
bank. He doesn't have the funding for it. He is counting on 
this Accelerator becoming law.
    What does he want to do with the money? What he wants to do 
is address the indigenous population and the many people in 
Alaska who live, literally, off the grid, and the kind of 
projects that they would be engaged in in order to generate 
electricity, in order to store electricity, are small projects. 
We are not talking here about billionaires who want to go to 
Mars with their money, we are talking about people in local 
communities who would be hiring people locally to rebuild the 
economy on a local basis.
    That is what would occur in Massachusetts and in Alabama, 
in Wyoming, Alaska, all across our Country, and by doing that, 
by showing that we can do this on a State-by-State, county-
bycounty, town-by-town, neighborhood-by-neighborhood basis, we 
will be showing the whole world how to have this great change 
occur, and there is not a moment to lose.
    Senator Markey. Yes. Again, people who are saying no to 
this are also saying no to four million new blue-collar jobs in 
our Country when we desperately need it. So there have to be, 
in my opinion, better arguments that are made against this bank 
than what we have heard so far today, because that is saying to 
four million families, four million individuals, we are going 
to deny you, over the next 4 years, a job. I haven't heard yet 
good answers as to why that should not be the case.
    At a public event last week, Cecil Roberts, the President 
of United Mine Workers of America, made news when he 
acknowledged a change in coming to coal country, whether people 
like it or not. Seven thousand coal workers lost their jobs 
last year alone. The United Mine Workers extended a hand to the 
Biden Administration, saying they will join in supporting 
investments in a clean energy future, but they need to be 
investing in energy communities that have been left behind.
    Mr. Hundt, how would a National Climate Bank help average 
citizens help leverage private capital off the sidelines for 
carbon capture and other technologies that cleanup our 
industrial and energy sectors?
    Mr. Hundt. The United Mine Workers of America's statement 
that you just referenced, Mr. Chairman, includes a list of 
things that they feel are necessary to address the coal mining 
communities in which they are working. At least several of 
those provisions specifically are authorized for the 
Accelerator to do by your legislation.
    The second thing that I would like to point out is that the 
impact on tax revenues that was referenced by Commissioner 
Bell, that is another activity in which the Accelerator could, 
through a State and local green bank, act in a particular 
community to ease the transition.
    Then most importantly of all, as we have talked about, all 
of the projects, from the very small to even the very large, 
that would be part of this grand rebuilding of the power 
platform of America would create new opportunities, not in some 
other Country, or not just in one or two States, but literally 
everywhere in the Country.
    Senator Markey. Thank you. And would the National Climate 
Bank sustain investment into local projects and communities for 
decades without requiring decades of Federal risk or continued 
appropriations?
    Mr. Hundt. The way your bill correctly proceeds is to have 
this initial deposit of $100 billion of capital. Then on the 
basis of that, the private sector would come in and sometimes 
invest in projects along with the green bank, and sometimes 
rely on the green bank as security, as it made the investments 
on its own.
    But that is why you were right earlier when you said, by 
every dollar that you deposit of public money, you are going to 
be able to attract, over a decade, $7 of private sector money. 
This is the best bang for the buck idea of the entire American 
Jobs Plan.
    Senator Markey. I agree with you, 100 percent, and I agree 
with the testimony of Ms. Andrade, as well. This is just a job 
creation engine. This is something that would unleash amazing 
amount of investment at the most local of level in 50 different 
States, which is why Don Young, very conservative member from 
Alaska, Republican, has endorsed this approach.
    We are not just talking about Massachusetts or California. 
We are talking about Alaska, we are talking about West 
Virginia, we are talking about every State in the Union. Every 
State in the Union should be able to take advantage of this 
incredible technological revolution that is going on out there, 
but knowing that it is going to be blue-collar workers who do 
the job.
    So, I can't thank you all enough for your testimony here 
today. I would like to ask unanimous consent to submit for the 
record a number of reports and articles that highlight the 
scale of investment in renewable energy, energy efficiency that 
is needed to decarbonize our economy while addressing historic 
inequities that will build a more prosperous America for 
everyone.
    Those materials, I think, will actually make it clear what 
the structure has to be for our future to make us more 
resilient, so we avoid the tragedy of what happened in Texas, 
so we anticipate the longer-term impacts that the climate are 
going to have on our Country.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Markey. We have had, in my opinion, a heartening 
and educational discussion today concerning this important 
piece of legislation.
    I would like to again extend my sincere gratitude to our 
witnesses, for those of you who are joining us on WebEx, as 
well.
    For some final housekeeping, Senators will be allowed to 
submit questions for the record through the close of business 
on Tuesday, May 11th, 2021. We will compile those questions and 
send them to our witnesses, and ask that our witnesses reply by 
May 25th, 2021, so we thank all of our witnesses. We thank all 
of the Senators for participating today.
    With that, this hearing is adjourned.
    [Whereupon, at 4:12 p.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
